LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

October 11, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE:

KIMBERLY WATSO, INDIVIDUALLY AND ON BEHALF OF C.H. AND C.P., HER
MINOR CHILDREN; KALEEN DIETRICH V. TONY LOUREY, IN HIS OFFICIAL
CAPACITY AS COMMISSIONER OF THE DEPARTMENT OF HUMAN SERVICES;
SCOTT COUNTY; JUDGE JOHN E. JACOBSON, IN HIS OFFICIAL CAPACITY;
TRIBAL COURT OF THE SHAKOPEE MDEWAKANTON SIOUX (DAKOTA)
COMMUNITY; JUDGE MARY RINGHAND, IN HER OFFICIAL CAPACITY; TRIBAL
COURT OF THE RED LAKE BAND OF CHIPPEWA INDIANS

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of counsel
for the Petitioners, on October 11, 2019, I caused service to be made pursuant to Rule 29 on the
following counsel for the Respondents:
RESPONDENT SCOTT COUNTY:
James Robertson Andreen
Erstad & Riemer
200 Riverview Office Tower
8009 34th Avenue, S.
Minneapolis, MN 55425
952-896-3700
jandreen@erstad.com

RESPONDENT TONY LOUREY:
Aaron Edward Winter
Assistant Attorney General
Attorney General's Office
Bremer Tower, Suite 1400
445 Minnesota Street
Saint Paul, MN 55101-2127
651-296-9412
Aaron.winter@ag.state.mn.us
RESPONDENT TRIBAL COURT OF
THE RED LAKE BAND OF CHIPPEWA
INDIANS:
Joseph Plumer
Plumer Law Office
9352 N. Grace Lake Road, S.E.
Bemidji, MN 56601
218-556-3824
jplummer@paulbunyan.net

RESPONDENTS JUDGE JOHN ERNST
JACOBSON AND TRIBAL COURT OF
THE SHAKOPEE MDEWAKANTON
SIOUX (DAKOTA) COMMUNITY:
Richard Alan Duncan
Joshua Todd Peterson
Faegre & Baker
2200 Wells Fargo Center
90 S. Seventh Street
Minneapolis, MN 55402-3901
612-766-7000
Richard.duncan@faegrebd.com
Josh.peterson@faegrebd.com

This service was effected by depositing three copies of a Petition for a Writ of Certiorari
in an official “first class mail” receptacle of the United States Post Office as well as by
transmitting digital copies via electronic mail.
Sincerely,
Arthur D. Chotin, Esq.
Principal

